Supreme Court, U.S.
FILED

JAN 2 8 2021
OFFICE OF THE CLERK

No. 20-6510

IN THE
TES

SUPREME COURT OF THE UNITED STA
LAWRENCE W. FORD, PETITIONER
V.

ANITA L. BUDDE, RESPONDENT
RI TO THE COURT OF APPEALS OF
ON PETITION FOR WRIT OF CERTIORA
NEVADA

PETITION FOR REHEARING ON WRIT

Lawrence W. Ford
P. 0. Box 358
Fairfield, CA 94533
(707) 365-3636 (Mess.)
lawisnotblind@comeastnet

OF CERTIORARI

Therese M. Shanks, Esq.
Robison, Sharp, Sullivan & Brust
71 Washington Street
Reno, Nevada 89503
Attorneys for Respondent

Attorney for Petitioner
IN PRO SE

RECEIVED
FEB - 8 2021
OFFICE OF COURTER
U.S.K
SUPREME

No. 20-6510

IN THE
SUPREME COURT OF THE UNITED STATES
LAWRENCE W. FORD, PETITIONER

V.
ANITA L. BUDDE, RESPONDENT
ON PETITION FOR WRIT OF CERTIORARI TO THE COURT OF APPEALS OF
NEVADA
RULE 44 CERTIFICATE
As required by Supreme Court Rule 44.2, I certify that'the Petition for Rehearing
is limited to "intervening circumstances of a substantial or controlling effect or to
other substantial grounds not previously presented," and that the Petition is
presented in good faith and.not for delay.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 28, 2021.

I
Lawrence W. Ford
Attorney for Petitioner, IN PRO SE
P. O. Box 358
Fairfield, CA 94533
(707) 365-3636 (Mess.)
lawisnotblind@comcast.net

ARGUMENT FOR REHEARING
1) Intervening circumstances of a substantial or controlling effect!
Facts Limited to Question one:
On September 14, 2018, Respondent, filed the Report of Administration; et
al. ("Report)"
Based solely upon Counsel Reed's (Reed) filing of the Report, Plaintiff Ford
(Ford), on September 25, 2018, filed his Objections to the Report, Ford also filed
his motion to relieve and sanction Reed on September 26, 2018. Then, based
solely upon Reed's statements within and in support of the Report, as well as
Counsel Clark's affidavit and attachments, Ford filed his motion for a new trial on
September 28, 2018. All three of the above-mentioned motions were filed timely
and with the Notice of Entry of order being issued December 20, 2018.
Direct Intervening cause
The Nevada Appellate Court, on April 27, 2020, created the following
intervening circumstance of not only a substantial effect, but a controlling effect as
well, by stating in its main conclusion:
"Ford also asserts that the district court abused its discretion in denying his
motion for a new trial and for relief from judgment related to the March 16,
2018, order entered following the evidentiary hearing. But that motion was
not timely filed and thus, it was properly denied."

In the matter of McDaniels v. Kirkland, 813 F.3d 781 (2015), ... quoting
Pinholster, 131 S.Ct. at 1398. The Supreme Court thus held that "the record under
review is limited to the record in existence at that same time."

PETITION FOR REHEARING ON WRIT OF CERTIORARI
Page I 1

It is well known that appellate courts are confined to the record compile
below and have no part in a record's composition.
The March 16, 2018 date was mistakenly inserted and then relied upon by
the appellate court for the first time in its Order of Affirmance. This date was
never mentioned in either the Report, in any of Ford's three motion caused by the
Report, nor was it mentioned in the opening appellate brief.
The intervention by the appellate court created circumstances of such a
substantial and/or controlling effect, that it became a "but for" situation, in which
the intervention of the incorrect date by the appellate court becomes the reason
continuing harm resulted. There is absolutely no way Ford could have anticipated
that the court would pick, insert, and then utilize a totally incorrect date, and as
such it becomes an unforeseeable intervening cause.
Petitioner's motion for a new trial was based upon what was learned in the
September 14, 2018 Report that was filed by Reed and petitioner so advised the
appellate court that his motion was "NOT" related to a March 16, 2018 order,
that the date of March 16, 2018, was in fact never discussed in his moving
papers, reply papers of the motion, nor the appellant's opening brief. In fact,
Petitioner's appellant's opening brief at the very beginning of the statement of fact,
made it very clear that the dates began with the filing of the Report of
Administration on September 14, 2018. This independent intervening cause
comes as no fault of Ford and broke the "causal connection" between what was
being appealed on and the damages by the aforementioned intervening cause.

PETITION FOR REHEARING ON WRIT OF CERTIORARI
Page 12

1
2

Plaintiff is a retired, disable military veteran who served his country
faithfully, and having served his country to preserve the American way, is now

3
4

utilizing his right to demand justice. To go to the Courts and rely upon them for not
only justice on the merits and to have the courts view the exact and correct merits,

5

7

9

but to do so no matter how small his case might be or how small the number of
people it might affect. Though this court looks to resolve cases that effect the mass,
justice is equally important to one man as it is to many.
CONCLUSION

10
11

The Court should grant the petition for rehearing on the writ of certiorari and

12
13

grant the Writ of Certiorari.
Respectfully submitted,

14
15

4,
awrence W( ord
P.O. Box 358
Fairfield, CA 94533
(707) 365-3636 (Mess)
lawisnotblind@comeastnet
IN PRO SE

16
17
18
19
20
21
22
23
24
25
26
27
28

PETITION FOR REHEARING ON WRIT OF CERTIORARI
Page 1 3

